              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Fiscal Year 2012 Work Performed
Under the Work for Others Program
at Los Alamos National Laboratory




OAS-M-14-03                    March 2014
                                  Department of Energy
                                    Washington, DC 20585


                                         March 12, 2014

MEMORANDUM FOR THE MANAGER, LOS ALAMOS FIELD OFFICE


FROM:                     George W. Collard
                          Assistant Inspector General
                            for Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Fiscal Year 2012 Work
                          Performed Under the Work for Others Program at Los Alamos National
                          Laboratory"

BACKGROUND

The attached report presents the results of the audit of Los Alamos National Laboratory's (LANL)
Fiscal Year (FY) 2012 Work for Others (WFO) Program. The Office of Inspector General
contracted with an independent certified public accounting firm, KPMG, LLP (KPMG), to assess
the internal control structure at LANL and determine whether it is effective in achieving the
current goals and objectives of the WFO Program.

The Department of Energy (Department) and its semi-autonomous National Nuclear Security
Administration (NNSA) provide research and technical assistance to other Federal agencies on a
reimbursable, full cost recovery basis through the WFO Program. WFO agreements are also used
as a mechanism through which industry can utilize expertise and facilities at LANL, a Federally
Funded Research and Development Center. Entities may sponsor LANL scientists to conduct
research in a specific area if researchers can be identified with appropriate and unique capabilities,
as well as interest and availability. For FYs 2010 through 2012, LANL's WFO activities comprised
between 10 and 12.5 percent of its annual funding. Specifically, WFO funding was $268 million
in FY 2010, $241 million in FY 2011 and $206 million in FY 2012. However, these figures do not
include classified WFO projects, which were not included in the scope of this audit.

RESULTS OF AUDIT

KPMG concluded that, except for the finding detailed in the attached report, LANL implemented
internal controls and compliance procedures in FY 2012 that met the Department's WFO Program
requirements, as stated in Department regulations, guidance and applicable contract provisions.
However, KPMG found that labor costs of certain personnel who primarily supported the WFO
Program were not allocated to WFO projects. Rather, the labor costs were allocated as part of the
indirect rates to both the Department and WFO projects on an organization-wide basis, rather than
using an allocation base that bears a more direct relationship to the support costs. KPMG
estimated that during FY 2012, the Department would have an annual savings of approximately
$2 million by implementing a separate indirect rate for these support organizations. KPMG
recommended that LANL and the NNSA Los Alamos Field Office consider the cost benefit of
removing the WFO related organization support costs from the general and administrative and
program support cost pools, and establish a separate indirect cost pool for allocating these costs to
WFO projects and other projects supported by the WFO support organization on a base that has a
more direct relationship to the employee's functions.

KPMG identified similar findings related to the misallocation of WFO support costs at Sandia
National Laboratories (SNL) and Lawrence Berkeley National Laboratory (LBNL). Specifically,
KPMG found that costs associated with the WFO support organizations at SNL and LBNL were
included in the general and administrative cost pool that is allocated to both WFO projects and
other Department projects on an organization-wide basis. In our report on Fiscal Year 2011
Work Performed Under the Work for Others Program at Sandia National Laboratories (OAS-L-
13-14, September 2013), KPMG estimated that the Department would have an annual savings of
approximately $2.3 million by implementing a separate indirect rate. As noted in our report on
Fiscal Year 2011 Audit of the Work Performed Under the Work for Others Program at Lawrence
Berkeley National Laboratory (OAS-L-13-10, June 2013), KPMG estimated approximately
$400,000 in annual savings to the Department with the implementation of a separate indirect rate
for the support organization at LBNL. In both reports we recommended that SNL and LBNL
consider removing the WFO support organization costs from the general and administrative
indirect cost pool and establish a separate indirect cost pool for allocating those costs on a base
that has a more direct relationship.

Further, KPMG noted that LANL's Ethics and Audit Division performed audits of the LANL
timekeeping policies in FY 2009 and FY 2011, and both audits identified employees who did not
allocate time proportionately benefiting projects (allocated judgmentally or treated as free work).
However, KPMG noted that in comparing the Ethics and Audit Division reports the number of
employees who did not allocate time proportionately decreased significantly. Because LANL had
taken corrective action and implemented additional policies and procedures for timekeeping,
KPMG did not repeat the related findings and recommendations in its report.

RECOMMENDATION

We recommend that the Manager, Los Alamos Field Office, ensure that LANL:

   •   Consider the cost benefit of removing the WFO support organizations' costs from the
       general and administrative indirect cost pool and establish a separate indirect cost pool for
       allocating those costs to WFO projects and other projects supported by the WFO support
       organizations on a base that has a more direct relationship to the organizations' functions.

MANAGEMENT RESPONSE AND AUDITOR COMMENTS
NNSA generally concurred with the finding and recommendation. NNSA stated that it will direct
Los Alamos internal auditors to perform a follow-on assessment to confirm whether the WFO
support organization costs meet the definition of general and administrative costs under paragraph
30(a)(6) of Cost Accounting Standard (CAS) 410 entitled Allocation of Business Unit General

                                                  2
and Administrative Expenses to Final Cost Objectives. If it is determined that some or all of the
WFO support functions do not meet the definition of general and administrative costs, then an
assessment will be made as to the treatment of the costs under CAS 418, Allocation of Direct and
Indirect Costs. NNSA also stated that the assessment will be accomplished while taking into
consideration the cost benefit of the change to include the materiality of the costs in relation to the
total general and administrative pool cost and the administrative costs of managing a separate rate.
Management's comments are included in Attachment 2.

Management's corrective actions are responsive to our recommendations.

PERFORMANCE AUDIT

KPMG conducted this performance audit in accordance with Government auditing standards
issued by the Comptroller General of the United States and the Department's Office of Inspector
General Audit Manual as appropriate. Government auditing standards require that KPMG plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on the audit objective.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which KPMG did not comply, in all
material respects, with the audit requirements. KPMG is responsible for the attached report dated
February 18, 2014, and the conclusions expressed in the report. An exit conference was waived
by NNSA management on February 3, 2014.

Attachments
cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff




                                                  3
    Attachment 1




1
    Attachment 1 (continued)




2
    Attachment 1 (continued)




3
    Attachment 1 (continued)




4
    Attachment 1 (continued)




5
    Attachment 1 (continued)




6
    Attachment 1 (continued)




7
    Attachment 1 (continued)




8
    Attachment 1 (continued)




9
     Attachment 1 (continued)




10
     Attachment 1 (continued)




11
     Attachment 1 (continued)




12
    Attachment 2




1
    Attachment 2 (continued)




2
    Attachment 2 (continued)




3
                                                                    IG Report No. OAS-M-14-03

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's
       overall message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.



Name                                                Date

Telephone                                           Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
  The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                         through the Internet at the following address:

            U.S. Department of Energy Office of Inspector General Home Page
                                  http://energy.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form.
